U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jiahao Kuang, et al. v. Department of Defense, et al,
S.Ct. No. 19-1194

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 17,
2020, and placed on the docket on April 2, 2020. The government’s response is due on May 4,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 3, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1194
KUANG, JIAHAO, ET AL.
DEPT. OF DEFENSE, ET AL.

MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM

